                                              EMPLOYMENT STANDARDS
                                              ADMINISTRATION


Office of Inspector General—Office of Audit




                                              AUDIT OF THE WAGE AND HOUR DIVISION,
                                              NEW ORLEANS DISTRICT OFFICE’S
                                              PROCESSING OF WORKERS’ COMPLAINTS
                                              RECEIVED IN THE AFTERMATH OF
                                              HURRICANE KATRINA




                                                                       Date:   March 31, 2008
                                                              Report Number:   04-08-002-04-420
U.S. Department of Labor                               March 2008
Office of Inspector General
Office of Audit                                        WHAT OIG FOUND

                                                       Wage and Hour adequately staffed the New
BRIEFLY…                                               Orleans office to serve the needs of the New
Highlights of Report Number: 04-08-002-04-420,         Orleans workforce after Hurricane Katrina. We
New Orleans District Office’s Processing of Worker     also found that:
Complaints Received in the Aftermath of Hurricane        ● Wage and Hour lacks an emergency plan
Katrina, to the Assistant Secretary for Employment           that specifically addresses how to serve
and Standards, dated March 31, 2008.                         the workforce in a similar disaster.
                                                         ● The New Orleans Office did not maintain a
WHY READ THE REPORT                                          record of all the inquiries it received and
                                                             the decisions made on those inquiries. As
On August 29, 2005, Hurricane Katrina hit the Gulf           a result, for inquires on which it did not
Coast, causing more than $100 million in damage.             open an investigation, the New Orleans
The following day, the levees protecting the City of         Office was unable to demonstrate the
New Orleans were breached and water poured in,               correctness of its decisions.
flooding approximately 80 percent of the city.           ● The New Orleans Office did not adequately
Officials ordered all persons to evacuate the city.          communicate with some complainants.
After conditions improved, a mass influx of              • The New Orleans Office’s community
contractors and workers came to New Orleans for              outreach efforts did not produce a large
cleanup and reconstruction operations. This created          number of complaints or investigations;
a heightened need to ensure that labor laws were             however, the office initiated more directed
not being violated.                                          investigations (402) in FY 2007, compared
                                                             with 58 in FY 2005).
WHY OIG DID THE AUDIT
                                                       WHAT OIG RECOMMENDED
In response to a Congressional request, we
conducted a performance audit of the Employment        OIG recommended that the Assistant Secretary
Standards Administration, Wage and Hour Division,      for Employment Standards ensure that:
New Orleans District Office’s processing of worker         • the Wage and Hour Continuity of
complaints received in the aftermath of Hurricane             Operations Plan (COOP) specifically
Katrina. Our audit objectives were to determine               addresses how Wage and Hour will serve
whether the New Orleans Office (1) was adequately             a workforce in the event of a similar
staffed after Hurricane Katrina; (2) used intake              disaster;
procedures that impeded workers’ ability to file           • Wage and Hour district offices maintain a
complaints; (3) adequately communicated with                  record of all inquires received; and
complainants; and (4) performed outreach to gather         • Wage and Hour investigators comply with
and investigate complaints made by migrant                    the policy on regular communication with
workers. Our audit covered the period July 1, 2005            complainants.
through September 30, 2007.
                                                       The Assistant Secretary for Employment
READ THE FULL REPORT                                   Standards agreed to improve the agency’s
                                                       COOP, did not agree to maintain a record of all
To view the report, including the scope,               inquiries received, and acknowledged violations
methodology, and full agency response, go to:          regarding non-communication with
                                                       complainants.
http://www.oig.dol.gov/public/reports/oa/2008/04-08-
002-04-420.pdf
                                                                  Processing of New Orleans Workers’ Complaints
                                                                             in the Aftermath of Hurricane Katrina




Table of Contents

EXECUTIVE SUMMARY ............................................................................................... 3


ASSISTANT INSPECTOR GENERAL’S REPORT ....................................................... 7

     Was the New Orleans Office adequately staffed, including Spanish and Portuguese-
     speaking investigators, to serve the needs of the New Orleans workforce after
     Hurricane Katrina? .................................................................................................... 8

     Did the New Orleans Office's intake procedures impede workers' ability to file
     complaints?............................................................................................................. 12

     Did the New Orleans Office adequately communicate with complainants? ............ 15

     How did the New Orleans Office perform outreach and establish relationships within
     the community in order to gather and investigate complaints made by migrant
     workers? ................................................................................................................. 17


EXHIBIT ........................................................................................................................ 21

     A. Schedule of Rotationally Assigned Investigators by Week ................................. 23


APPENDICES .............................................................................................................. 25

     A. Background ....................................................................................................... 27

     B. Objectives, Scope, Methodology, and Criteria................................................... 31

     C. Acronyms and Abbreviations............................................................................. 35

     D. Agency Response ............................................................................................. 37




U.S. Department of Labor—Office of Inspector General                                                                             1
Report No. 04-08-002-04-420
Processing of New Orleans Workers’ Complaints
in the Aftermath of Hurricane Katrina




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                      U.S. Department of Labor—Office of Inspector General
                                                                Report No. 04-08-002-04-420
                                               Processing of New Orleans Workers’ Complaints
                                                          in the Aftermath of Hurricane Katrina



Executive Summary
On August 29, 2005, Hurricane Katrina made landfall along the Gulf Coast of the United
States. The following day, the levees that protected the City of New Orleans were
breached and an estimated 80 percent of the city was flooded, causing widespread
damage. Local and out-of-state contractors, and people in search of work from all over
the country, quickly moved into areas damaged by the hurricane to begin cleanup and
reconstruction operations. This mass influx of contractors and workers created a great
need for federal oversight to ensure that workers were paid for all hours worked, were
paid at least the federal minimum wage, and received overtime pay for all hours worked
over 40 per week.

At the request of the Chairman of the Subcommittee on Domestic Policy, House
Committee on Oversight and Government Reform, we conducted a performance audit
of the Employment Standards Administration/Wage and Hour Division (Wage and Hour)
New Orleans District Office’s (New Orleans Office) processing of worker complaints
received in the aftermath of Hurricane Katrina. Our audit covered the New Orleans
Office’s operations from July 1, 2005, through September 30, 2007, and we designed
our audit tests to answer the following questions related to the New Orleans Office’s
response to Hurricane Katrina:

   1. Was the New Orleans Office adequately staffed, including Spanish and
      Portuguese-speaking investigators, to serve the needs of the New Orleans
      workforce after Hurricane Katrina?

   2. Did the New Orleans Office’s intake procedures impede workers’ ability to file
      complaints?

   3. Did the New Orleans Office adequately communicate with complainants?

   4. How did the New Orleans Office perform outreach and establish relationships
      within the community in order to gather and investigate complaints made by
      migrant workers?

Results

   1. By detailing additional investigators to the New Orleans Office for short-term,
      rotational assignments, including Spanish and Portuguese-speaking
      investigators, Wage and Hour adequately staffed the New Orleans Office to
      serve the needs of the New Orleans workforce after Hurricane Katrina. However,
      we found that Wage and Hour lacks an emergency plan that satisfactorily
      addresses how it would serve the New Orleans’ workforce (or any other



U.S. Department of Labor—Office of Inspector General                                         3
Report No. 04-08-002-04-420
Processing of New Orleans Workers’ Complaints
in the Aftermath of Hurricane Katrina


       metropolitan area in the Southwest Region) should a situation similar to that of
       Katrina occur again.

    2. We could not determine whether the New Orleans Office’s intake procedures
       impeded workers’ ability to file complaints, because the New Orleans Office did
       not maintain a record of all workers’ inquiries received. Specifically, the New
       Orleans Office could not demonstrate that inquiries were correctly determined not
       to represent a violation or to be outside of Wage and Hour’s jurisdiction. For
       violations determined to be outside of Wage and Hour’s jurisdiction, the New
       Orleans Office could not show that it made the appropriate referrals or advised
       workers of their rights of individual action under Section 16(b) of the FLSA.

    3. The New Orleans Office did not adequately communicate with some of its
       complainants, as required by internal procedures contained in the Wage and
       Hour Field Operations Handbook (FOH). In 11 of the 30 cases reviewed, we
       found significant periods (two or more months) where the file did not support that
       the investigator had communicated with the complainant.

    4. The New Orleans Office performed community outreach and attempted to
       establish relationships within the community to assist the office in gathering and
       investigating worker complaints; however, its efforts produced few complaints or
       investigations. The decline in the number of complaints allowed the New
       Orleans Office to do more directed investigations (402 in FY 2007, compared
       with 58 in FY 2005).

Recommendations

We recommend that the Assistant Secretary for Employment Standards:

    1. Ensure that the Wage and Hour Continuity of Operations Plan (COOP)
       specifically addresses how Wage and Hour will serve a workforce such as that
       which migrated to New Orleans after Hurricane Katrina in the event of a disaster
       that forces Wage and Hour employees to evacuate an affected area.

    2. Direct Wage and Hour district offices to maintain a record of all inquiries
       received. The record should include the date of the inquiry, the name (if provided
       or anonymous) of the individual making the inquiry, the nature of the inquiry, and
       the disposition of the inquiry.

    3. Ensure that Wage and Hour investigators comply with Wage and Hour’s policy of
       maintaining regular communication with complainants and document those
       communications in the case file.




4                                      U.S. Department of Labor—Office of Inspector General
                                                                Report No. 04-08-002-04-420
                                               Processing of New Orleans Workers’ Complaints
                                                          in the Aftermath of Hurricane Katrina

Agency Response

The Assistant Secretary for Employment Standards (ESA) agreed that the Wage and
Hour COOP may be improved and stated that Wage and Hour will examine the COOP
to ensure it adequately addresses the issue raised in this report. ESA stated that
adopting our recommendation to require Wage and Hour district offices to maintain a
record of all inquiries would create needless impediments and unnecessary privacy
issues for those who seek to contact Wage and Hour. ESA further stated that keeping a
record of all inquiries would prove detrimental to Wage and Hour’s ability to provide
assistance to employees who may be reluctant to complain. ESA acknowledged that
adequate communication with complainants was not always maintained due to having
multiple investigators assigned to a single investigation and the use of short-term
detailed staff. ESA also noted that, regardless of expectations about what the volume
of complaints should have been, the New Orleans District Office initiated a greater
number of directed investigations in the period following the hurricane than it had in
previous years.

See Appendix D for ESA’s complete response to our draft report.

OIG Conclusion

We acknowledge the concerns expressed by Wage and Hour related to the need to
assure reluctant workers that their privacy will be protected should they file a complaint.
We would not expect Wage and Hour to require unwilling individuals to provide their
names or other information of a personal nature. Individuals wishing to remain
anonymous could be recorded as such. Additionally, we would not expect Wage and
Hour to record all inquiries received by the agency, but only those made by workers
whose intent was to file a complaint. Our findings and conclusions remain unchanged.




U.S. Department of Labor—Office of Inspector General                                         5
Report No. 04-08-002-04-420
Processing of New Orleans Workers’ Complaints
in the Aftermath of Hurricane Katrina




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




6                                      U.S. Department of Labor—Office of Inspector General
                                                                Report No. 04-08-002-04-420
                                                Processing of New Orleans Workers’ Complaints
                                                           in the Aftermath of Hurricane Katrina




U.S. Department of Labor                   Office of Inspector General
                                           Washington, DC 20210



March 31, 2008


                         Assistant Inspector General’s Report


Ms. Victoria A. Lipnic
Assistant Secretary for Employment Standards
U.S. Department of Labor
200 Constitution Avenue, N.W.
Washington, D.C. 20210

We conducted a performance audit of the New Orleans Office of Wage and Hour’s
processing of worker complaints received in the aftermath of Hurricane Katrina. The
audit was initiated as a result of a congressional request from the Chairman of the
Subcommittee on Domestic Policy, House Committee on Oversight and Government
Reform.

The audit covered the period July 1, 2005, through September 30, 2007. Our audit
objectives were to determine the following:

       1. Was the New Orleans Office adequately staffed, including Spanish and
          Portuguese-speaking investigators, to serve the needs of the New Orleans
          workforce after Hurricane Katrina?

       2. Did the New Orleans Office’s intake procedures impede workers’ ability to file
          complaints?

       3. Did the New Orleans Office adequately communicate with complainants?

       4. How did the New Orleans Office perform outreach and establish relationships
          within the community in order to gather and investigate complaints made by
          migrant workers?

We concluded that Wage and Hour adequately staffed the New Orleans Office to serve
the needs of the New Orleans workforce after Hurricane Katrina by detailing additional
investigators for short-term, rotational assignments, including Spanish and Portuguese-
speaking investigators. However, Wage and Hour lacks an emergency plan that
satisfactorily addresses how it would serve the New Orleans’ workforce (or any other


U.S. Department of Labor—Office of Inspector General                                          7
Report No. 04-08-002-04-420
Processing of New Orleans Workers’ Complaints
in the Aftermath of Hurricane Katrina


metropolitan area in the Southwest Region) should a situation similar to that of Katrina
occur again. Additionally, because the Wage and Hour does not maintain a record of all
workers’ inquiries received, we could not determine whether the New Orleans Office’s
intake procedures impeded workers’ ability to file complaints. We also found that the
New Orleans Office did not adequately communicate with some of its complainants.
Finally, although the New Orleans Office performed community outreach and attempted
to establish relationships within the community to assist the office in gathering and
investigating worker complaints, its efforts produced few complaints or investigations.
We noted the decline in the number of complaints allowed the New Orleans Office to do
more directed investigations.

We conducted our audit in accordance with Generally Accepted Government Auditing
Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives. Our audit objectives, scope, methodology and criteria are detailed in
Appendix B.


FINDINGS AND RESULTS

1. Was the New Orleans Office adequately staffed, including Spanish and
   Portuguese-speaking investigators, to serve the needs of the New Orleans
   workforce after Hurricane Katrina?

By detailing additional investigators to the New Orleans Office for short-term, rotational
assignments, including Spanish and Portuguese-speaking investigators, Wage and
Hour adequately staffed the New Orleans Office to serve the needs of the New Orleans
workforce after Hurricane Katrina. However, we found that Wage and Hour lacks an
emergency plan that satisfactorily addresses how it would serve the New Orleans’
workforce (or any other metropolitan area in the Southwest Region) should a situation
similar to that of Katrina occur again.

Hurricane-related flooding began on August 30, 2005, causing widespread damage
throughout much of the New Orleans area, including damage to the building housing the
New Orleans Office. Additionally, according to statements made by the New Orleans
Office Director during a congressional hearing, at least half of the New Orleans Office
staff suffered damage to their homes. As a result, the New Orleans Office staff were
forced to work in a variety of locations, including Houston and Dallas, Texas; Baton
Rouge and Monroe, Louisiana; Grand Rapids, Michigan; and Jacksonville, Florida.




8                                      U.S. Department of Labor—Office of Inspector General
                                                                Report No. 04-08-002-04-420
                                                     Processing of New Orleans Workers’ Complaints
                                                                in the Aftermath of Hurricane Katrina

According to the Wage and Hour Investigative Support and Reporting Database
(WHISARD), only 12 complaints were made during the first three months after
Hurricane Katrina (September, October and November of 2005) that involved employers
who were within the 13 parishes served by evacuated staff. Of those complaints, 10
were conciliations and 2 were limited investigations. 1 All were concluded within 2
months of the complaint date.

The New Orleans Office staff did not return to the New Orleans area until November
2005, when temporary space was secured at the Clearview Mall in Metairie, Louisiana.
At the end of November 2005, Wage and Hour began detailing investigators from other
locations on short-term rotational assignments to New Orleans. In all, 29 investigators,
including 18 (62 percent) who were Spanish and/or Portuguese-speaking, were detailed
to New Orleans for one or more short-term rotational assignments between November
2005 and September 2007.


                                                Table 1

                                     Weekly Average
                        Number of Investigators Serving Temporary
                          Assignments in the New Orleans Office

                                                    Total
                                                  Assigned         Spanish-speaking
                                                Investigators    Assigned Investigators
                  FY 2006 (1st 6 Months)             0.9                  0.9
                  FY 2006 (2nd 6 Months)             2.5                  2.0
                  FY 2007 (1st 6 Months)             3.6                  1.6
                  FY 2007 (2nd 6 Months)             1.8                  0.6

As Table 1 illustrates, Wage and Hour’s use of rotational assignments increased the
number of investigators, Spanish-speaking or otherwise, working in the New Orleans
area. (See Exhibit A for greater detail.) Recognizing that a long-term solution was
needed, the New Orleans Office hired four investigators and one team leader during
FY 2007. Three of the five new hires were Spanish-speaking.

The New Orleans Office did not have any permanent Portuguese-speaking
investigators; however, Wage and Hour detailed an investigator from the Puerto Rico
District Office who speaks both Spanish and Portuguese for three rotational
assignments to the New Orleans Office during calendar year 2006. These assignments
lasted between 2 and 4 weeks each.

1
  A conciliation is a technique which provides fast service and is generally handled by telephone. A
limited investigation is limited to a particular employee or employees, a particular department or
employment practice and particular time frame.


U.S. Department of Labor—Office of Inspector General                                                   9
Report No. 04-08-002-04-420
Processing of New Orleans Workers’ Complaints
in the Aftermath of Hurricane Katrina


We reviewed one case involving 9 Portuguese-speaking complainants that was
provided to us by the Southern Poverty Law Center to support its concerns regarding
how complaints were handled. The referral letter to Wage and Hour was dated April 6,
2006, and the case was assigned to an investigator on April 25, 2006. The Portuguese-
speaking investigator conducted the investigation, and due largely to the investigator’s
efforts, back wage payments totaling $12,010 were made to 43 workers. By utilizing
Portuguese-speaking investigators from other Wage and Hour offices when needed, the
New Orleans Office was able to address its intermittent need for a Portuguese-speaking
investigator.

We obtained and analyzed data from the WHISARD regarding both complaint-initiated
investigations and directed investigations (investigations initiated by Wage and Hour).
We found that the New Orleans area office’s performance subsequent to Hurricane
Katrina had improved when compared to its FY 2005 performance. As Table 2 below
illustrates, in FY 2005 it took more than twice as long to assign complaint cases to
investigators after case initiation and much longer to conclude 2 complaint investigations.

                                                Table 2

                     Volume and Efficiency of Handling Complaint Cases
                                 New Orleans Area Only 3

                                                      Cases          Days        Days to
                                                     Initiated     to Assign    Conclude
                     FY 2005                           188             56         163
                     FY 2006 (1st 6 Months)               45            5          38
                     FY 2006 (2nd 6 Months)               66           25          62
                     FY 2007                              79           24         N/A



In order to determine whether the New Orleans Office had a sufficient number of
Spanish and Portuguese-speaking investigators, we asked the Southwest Regional
Administrator to select the District Office in the Southwest Region that was the most
demographically similar to that of New Orleans. The Regional Administrator selected
the Little Rock, Arkansas office. The Census Bureau’s American Community Survey

2
  We compared all complaint cases initiated during a given period by counting the number of days from
complaint initiation to complaint conclusion. We did not include any cases in our analysis that had not yet
been concluded, and for this reason we did not include an average number of days to conclude cases
that were initiated in FY 2007. The data we analyzed showed that 32 of 79 cases initiated in FY 2007
had yet to be concluded by the end of our audit period, which would cause an average for FY 2007 to be
meaningless.
3
  We identified cases served by the New Orleans area office by comparing the employers’ addresses with
the parishes that were served by the New Orleans area office.


10                                             U.S. Department of Labor—Office of Inspector General
                                                                       Report No. 04-08-002-04-420
                                                        Processing of New Orleans Workers’ Complaints
                                                                   in the Aftermath of Hurricane Katrina

(ACS) for 2006 estimated that Little Rock had a Hispanic population of 4.7 percent. The
ACS survey for the City of New Orleans estimated a Hispanic population of 4.1 percent
for 2006. Studies and news articles suggest the percentage for the City of New Orleans
underestimates the true number of Hispanic individuals who were in New Orleans after
Hurricane Katrina, but we were unable to find any reliable estimates for what the
percentage may have been.

Table 3 below shows the number of investigators versus Spanish-speaking
investigators assigned to the New Orleans and Little Rock offices for each year from
FY 2004 through FY 2007. Neither office had any Portuguese-speaking investigators.

                                               Table 3

                     Comparison of Wage and Hour Investigators
                    New Orleans area office to Little Rock area office

     Office                  2004                2005                  2006                2007

                              Spanish-            Spanish-              Spanish-            Spanish-
                     Total    Speaking   Total    Speaking     Total    Speaking   Total    Speaking
     New Orleans       6            2      5            2        5            2      8            4
     Little Rock       4            1      3            1        5            2      4            2


As Table 3 illustrates, the number of permanent Spanish-speaking investigators in the
New Orleans area office equaled or surpassed in number and percentage those
assigned to Little Rock area office. During FY 2006, Spanish-speaking investigators
from other Wage and Hour offices served rotational assignments in the New Orleans
Office, supplementing the number of permanent Spanish-speaking investigators. In
FY 2007, the New Orleans Office hired two new Spanish-speaking investigators and
one Spanish-speaking team leader, doubling the number of Spanish-speaking
investigators who were assigned to the New Orleans area office.

We also met or spoke with several worker advocacy groups to discuss the need for
Spanish-speaking investigators in the New Orleans Office. The groups generally
criticized Wage and Hour’s initial response to the hurricanes and the New Orleans
Office’s lack of Spanish-speaking investigators. However, they could not provide us
with any specific examples of workers who did not receive due process from the New
Orleans Office because of a language barrier.

       •      Wage and Hour Continuity of Operations Plan (COOP)

Wage and Hour did not have an emergency plan that addressed the needs of the New
Orleans workforce in the immediate aftermath of the catastrophic damage caused by
Hurricane Katrina. Yet, despite the experience with the New Orleans flooding, Wage
and Hour’s COOP for the Southwest Region, which includes the New Orleans Office,


U.S. Department of Labor—Office of Inspector General                                                   11
Report No. 04-08-002-04-420
Processing of New Orleans Workers’ Complaints
in the Aftermath of Hurricane Katrina


still does not adequately address how Wage and Hour would serve the New Orleans’
(or any other metropolitan area in the Southwest Region) workforce should a situation
similar to that of Katrina occur again.

The COOP contains a detailed plan for where Wage and Hour employees are to report
in the case of an emergency, including contact information for all Wage and Hour
employees in each district office. The COOP also provides plans for cross-training of
employees and ensuring that they have the means to work from alternate worksites or
to telework from their homes. However, it does not include a specific plan describing
how a workforce in an affected area, especially one whose demographics are suddenly
altered, will be served if employees of the local district office are forced to work from
alternative worksites outside the local area.

Recommendation 1

We recommend that the Assistant Secretary for Employment Standards ensure that the
Wage and Hour COOP specifically addresses how Wage and Hour will serve a
workforce such as that which migrated to New Orleans after Hurricane Katrina in the
event of a disaster that forces Wage and Hour employees to evacuate an affected area.

Agency Response

The Assistant Secretary for Employment Standards stated that she agreed with our
suggestion that Wage and Hour’s COOP may be improved by adding processes to
continue operations if the agency experiences a disaster on the scale of the 2005 Gulf
Coast hurricanes. She stated that Wage and Hour will examine its COOP to ensure
that it adequately addresses the issue raised in our report.

See Appendix D for ESA’s complete response to our draft report.

OIG Conclusion

The Assistant Secretary generally agreed with our recommendation, but her response
provided no completion milestone. As a result, the recommendation remains
unresolved pending an estimated completion date.


2. Did the New Orleans Office’s intake procedures impede workers’ ability to file
   complaints?

We could not determine whether the New Orleans Office’s intake procedures impeded
workers’ ability to file complaints, because the New Orleans Office did not maintain a
record of all workers’ inquiries received. Specifically, the New Orleans Office could not


12                                      U.S. Department of Labor—Office of Inspector General
                                                                Report No. 04-08-002-04-420
                                               Processing of New Orleans Workers’ Complaints
                                                          in the Aftermath of Hurricane Katrina

demonstrate that inquiries were correctly determined unlikely to represent a violation or
to be outside of Wage and Hour’s jurisdiction. Furthermore, for violations determined to
be outside of Wage and Hour’s jurisdiction, the New Orleans Office could not show that
it made the appropriate referrals or advised workers of their rights of individual action
under Section 16(b) of the FLSA.

To determine whether the New Orleans Office’s intake procedures impeded workers’
ability to file complaints, we reviewed Wage and Hour’s intake procedures as detailed in
its FOH, interviewed New Orleans Office staff to determine if they were complying with
FOH intake procedures, and reviewed training provided to staff responsible for intake.

Consistent with Wage and Hour policy and our interviews with New Orleans Office
personnel, inquiries to the New Orleans Office typically are first received by Wage and
Hour assistants or technicians, who perform the initial review. The assistants or
technicians assessed whether Wage and Hour had jurisdiction in the matter and
whether or not it appeared likely that a law Wage and Hour enforces had been violated.
During this process, the assistant or technician may discover that more information is
needed from the complainant before a determination can be made. The assistants or
technicians may consult with the District Director or Assistant District Director during this
initial determination phase. Once a preliminary determination has been made by the
assistants or technicians, the alleged violation is forwarded to the District Director or
Assistant District Director for review. The District Director or Assistant District Director
then reviews the inquiry and the recommendations of the assistant or technician. If it is
determined that there is likely no violation, the assistant or technician informs the
complainant why no action will be taken. In the case where it is determined that the
alleged violation is outside of Wage and Hour’s jurisdiction, the assistant or technician
refers the complainant to an entity that might be able to provide assistance. If a
decision is made by the District Director or Assistant District Director that further
investigative action is to be taken, the alleged violation is given a case number and the
case is put in inventory for assignment to an investigator.

Assignment of cases is made using a priority basis. Cases receive priority assignment
if the complaint involves one of the following: minors who are engaged in a hazardous
occupation; the health or safety of migrant workers or other employees; select violations
of the Family and Medical Leave Act; tolling of the statute; violations on government
contracts nearing completion; or cases that involve widespread violations affecting a
large number of employees of multi-unit national enterprises.

For inquiries from or on behalf of workers for which Wage and Hour does not
open an investigation, its policy and procedures in the FOH provide that
allegations of violations that relate to laws outside of Wage and Hours’
jurisdiction shall be referred to the proper authority. Complainants who allege
violations outside the statute of limitations or otherwise not appropriate for




U.S. Department of Labor—Office of Inspector General                                        13
Report No. 04-08-002-04-420
Processing of New Orleans Workers’ Complaints
in the Aftermath of Hurricane Katrina


investigation are advised of their right to private action under Section 16(b) of the
Fair Labor Standards Act. 4

The New Orleans Office did not maintain a record of all inquiries received and the
decisions made on those inquiries; therefore, it cannot demonstrate that all inquiries
were handled in accordance with the FOH. Specifically, the New Orleans Office could
not demonstrate that inquiries were correctly determined unlikely to represent a violation
or to be outside of Wage and Hour’s jurisdiction. Furthermore, for violations determined
to be outside of Wage and Hour’s jurisdiction, the New Orleans Office could not show
that it made the appropriate referrals or advised workers of their rights of individual
action under Section 16(b) of the FLSA.

Recommendation 2

We recommend that the Assistant Secretary for Employment Standards direct Wage
and Hour district offices to maintain a record of all inquiries received. The record should
include the date of the inquiry, the name of the individual making the inquiry, the nature
of the inquiry (unless the complainant wishes to remain anonymous), and the
disposition of the inquiry.

Agency Response

The Assistant Secretary for Employment Standards stated that adopting our
recommendation to require Wage and Hour district offices to maintain a record of all
inquiries would create needless impediments and unnecessary privacy issues for those
who seek to contact Wage and Hour. ESA further stated that keeping a record of all
inquiries would prove detrimental to Wage and Hour’s ability to provide assistance to
employees who may be reluctant to complain, because they are fearful of providing their
name to a government authority, and uncertain that their concerns have merit.

See Appendix D for ESA’s complete response to our draft report.

OIG Conclusion

We acknowledge the concerns expressed by Wage and Hour related to the need to
assure reluctant workers that their privacy will be protected should they file a complaint.
We would not expect Wage and Hour to require unwilling individuals to provide their
names or other information of a personal nature. Individuals wishing to remain
anonymous could be recorded as such. Additionally, we would not expect Wage and
Hour to record all inquiries received by the agency, but only those made by workers
4
  Section 16(b) rights refer to that subsection under the Fair Labor Standards Act. Significantly, this
subsection provides the right to bring an action by or on behalf of an employee against an employer who
violates provisions of the act.


14                                            U.S. Department of Labor—Office of Inspector General
                                                                      Report No. 04-08-002-04-420
                                                     Processing of New Orleans Workers’ Complaints
                                                                in the Aftermath of Hurricane Katrina

whose intent was to file a complaint. Our finding and recommendation remains
unchanged.

3. Did the New Orleans Office adequately communicate with complainants?

The New Orleans Office did not adequately communicate with some of its complainants.
In 11 of the 30 cases we reviewed, we found that the assigned investigator(s) did not
communicate with the complainant for one or more significant periods (two or more
months). The lapses in communication that we identified averaged about 5 months.
Additionally, as a matter of policy, the New Orleans Office does not routinely contact
other employees affected by a complaint at a particular worksite or business.

Wage and Hour policy requires that investigators maintain contact with
complainants during investigations. According to FOH procedures, investigators
should regularly communicate with complainants during the course of
investigations to keep them informed about the status of the case. In lengthy
investigations, the Investigator should contact the complainant at least once
every 30 days..

We selected a judgmental sample of 30 cases from the universe of complaint cases that
the New Orleans Office initiated subsequent to Hurricane Katrina. The 30 cases
included investigations from three parishes in the New Orleans area (Orleans, St.
Bernard, and Jefferson Parishes). We selected a variety of investigations that were
initiated over the course of the two years after Hurricane Katrina. Most of the cases we
selected were active for at least six months, thus necessitating the need for more
communication.

The New Orleans Office did not communicate with the complainant for one or more
significant periods (two or more months) in 11 of the 30 investigations we tested. The
lapses in communication that we identified averaged about 5 months.

The New Orleans Office’s lapses in communicating with complainants throughout the
course of an investigation resulted from the assigned investigator not complying with the
FOH and the District Director, or the Assistant District Director not adequately reviewing
the cases to ensure that the required communication had been made or documented.
Lack of communication with complainants could make them less likely to be involved in
their case. It also increases the likelihood that contact information will not be up-to-
date, making it more difficult to locate the worker should back wages be awarded.

In addition to the lapses in communications with complainants, Wage and Hour
policy prohibits investigators from communicating the existence of a complaint to
other employees who may have been similarly affected. As explained in Wage
and Hour Fact Sheet #44 (Visits to Employers) 5 , complaints are confidential;
5
    The Fact Sheet provides general information about the laws enforced by the Wage and Hour Division.


U.S. Department of Labor—Office of Inspector General                                                     15
Report No. 04-08-002-04-420
Processing of New Orleans Workers’ Complaints
in the Aftermath of Hurricane Katrina


therefore, the name of the worker and nature of the complaint are not disclosed.
Wage and Hour also does not disclose the reason for an investigation. The FOH
directs Wage and Hour investigators to take no action that would reveal the
existence of a complaint or disclose the identity of a complainant.

While the confidentiality of complainants’ identities needs to be protected, Wage
and Hour’s policy of not revealing the existence of a complaint or maintaining
routine contact with other employees may increase the likelihood that Wage and
Hour will not obtain current contact information for those employees, should back
wages be awarded.

Recommendation 3

We recommend that the Assistant Secretary for Employment Standards ensure that
Wage and Hour investigators comply with Wage and Hour’s policy of maintaining
regular communication with complainants and document those communications in the
case file.

Agency Response

The Assistant Secretary for Employment Standards acknowledged that there
were instances in which the FOH guidance related to communications with
complainants was not precisely followed. She stated that, in several cases, the
failure to follow procedures was directly related to the unique circumstance of
having multiple investigators assigned to a single investigation, due to the use of
short-term detailed staff. The Assistant Secretary further stated that Wage and
Hour will reaffirm its procedures for regular communication with complainants
and the subsequent documentation of such communications.

See Appendix D for ESA’s complete response to our draft report.

OIG Conclusion

The Assistant Secretary generally agreed with our recommendation, but her response
provided no completion milestone. As a result, the recommendation remains
unresolved pending an estimated completion date.




16                                      U.S. Department of Labor—Office of Inspector General
                                                                Report No. 04-08-002-04-420
                                               Processing of New Orleans Workers’ Complaints
                                                          in the Aftermath of Hurricane Katrina

4. How did the New Orleans Office perform outreach and establish relationships
   within the community in order to gather and investigate complaints made by
   migrant workers?

The New Orleans Office performed community outreach and attempted to establish
relationships within the community to assist the office in gathering and investigating
worker complaints through the following activities:

       ●      Presentation on Entitlement to Hispanics working to Rebuild New Orleans
       ●      Community Call-in Radio Show to Advise Hispanic Workers (3 Sessions)
       ●      Panel Discussion with Loyola Law Clinic on “Worker Protection Laws”
       ●      Panel Discussion for Convening on Workers Rights in the Gulf Coast
       ●      Mobile Mexican Consult Exhibit Booth
       ●      Job Fair for Hispanic Worker Exhibit Booth
       ●      Seminar for Prime Contracts engaged in Rebuilding New Orleans

In the WHISARD, New Orleans Office employees charged 222 hours to outreach
activities during the period September 2005 through August 2007. The hours charged
in the WHISARD do not include time spent by staff making weekly visits to outreach
centers. Wage and Hour tracked those efforts as technical assistance.

While these outreach efforts did not produce a large number of complaints or
investigations, the New Orleans Office did initiate more directed investigations of prime
contractors and subcontractors who received government contracts from the Army
Corps of Engineers and FEMA.

The number of directed investigations conducted by the New Orleans Office increased
from 58 in FY 2005 to 402 in FY 2007. The results of the increased use of directed
investigations by the New Orleans Office are shown in Table 4:




U.S. Department of Labor—Office of Inspector General                                        17
Report No. 04-08-002-04-420
Processing of New Orleans Workers’ Complaints
in the Aftermath of Hurricane Katrina




                                                  Table 4

                           Comparison of Directed Investigations
                               New Orleans District Office
                                FY 2005 Through FY 2007


                                                                       Number of
                                                                       Employees       Back Wages
                                                                       Due Back       Due Workers
                                                    Percentage of     Wages from      as a Result of
                   Total         Total Directed        Directed         Directed         Directed
               Investigations    Investigations     Investigations   Investigations   Investigations
     FY 2005        567                58                10%               818           $ 732,912
     FY 2006        543               176                32%             2,656            1,696,375
     FY 2007        687               402                59%             8,343            8,990,683

                                TOTAL                                   11,817         $11,418,970

In addition to its directed investigations, the New Orleans Office received referrals of
complaints from worker advocacy groups. In March 2006, the Loyola Law Clinic
referred a complaint to the New Orleans Office involving four Spanish-speaking
workers. The resulting investigation cited the employer for failure to pay prevailing wage
rates and overtime (totaling $39,342) to 151 employees. Back wages and overtime
were paid to 42 of the 151 employees; however, 109 employees could not be located.
Monies due to the 109 employees is being held in a trust fund account until such time
as the employees claim the back wages or overtime due to them. 6

Another advocacy group, the Southern Poverty Law Center, provided OIG with five
complaints that were submitted to Wage and Hour on behalf of Spanish and
Portuguese-speaking workers. The Southern Poverty Law Center accused Wage and
Hour of not enforcing Federal labor laws by (1) failing to interview each complainant
properly in their native language and (2) failing to communicate with complainants
regarding the process and potential settlement. We reviewed the New Orleans Office’s
responses to the complaints referred by the Southern Poverty Law Center files and
found the following information:




6
  The Wage and Hour Regional Office becomes the fiduciary of funds held for workers who cannot be
located using their last known address. The Internal Revenue Service is another avenue used to help
notify workers of back wages due to them.


18                                           U.S. Department of Labor—Office of Inspector General
                                                                     Report No. 04-08-002-04-420
                                                   Processing of New Orleans Workers’ Complaints
                                                              in the Aftermath of Hurricane Katrina


                                              Table 5

                             Results of Complaints Referred by
                             the Southern Poverty Law Center

                                                 Total
                               Number of         Back
                               Employees        Wages
                                  Due             or
                              Back Wages       Overtime
                                   or           Paid to
      Employer                  Overtime      Employees    Case Status

      Case No. 1442559             43           $12,010    Concluded 3/21/2007

      Case No. 1440318             38           $50,312    Concluded 1/30/2007
                                                           Wage and Hour’s investigation
                                                           found the employer owed workers
                                                           $125,530 in back wages or
                                                           overtime. The case was referred to
                                                           the Solicitor’s Office on 5/18/2007
                                                           for litigation of repeated violations
      Case No.1469341              120             $0      by the employer. 7

The New Orleans Office was unable to locate two complaints that the Southern Poverty
Law Center claimed to have filed. According to the District Director, these complaints
would have been submitted at a time when the New Orleans Office was temporarily
operating in the Clearview Mall and may have been misplaced as a result of having to
share a facsimile machine with another agency. The District Director further stated that
complaints that were not received by the New Orleans Office can be re-submitted for
Wage and Hour investigation. As of November 2007, these complaints had not been
resubmitted. 8

We are making no recommendations related to this finding.




Elliot P. Lewis

7
  Case filed with the District Court 9/27/2007. No agreement has been reached between the employer’s
counsel and the Solicitor’s Office. DOL has the burden of proof involving FLSA violations and back
wages due to workers.
8
  OIG notified the Southern Poverty Law Center of the two complaints that were not found in the
WHISARD system. In addition, SPLC was informed it could resubmit the complaints to the New Orleans
Office for review.


U.S. Department of Labor—Office of Inspector General                                               19
Report No. 04-08-002-04-420
Processing of New Orleans Workers’ Complaints
in the Aftermath of Hurricane Katrina




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




20                                      U.S. Department of Labor—Office of Inspector General
                                                                Report No. 04-08-002-04-420
                                               Processing of New Orleans Workers’ Complaints
                                                          in the Aftermath of Hurricane Katrina




Exhibit




U.S. Department of Labor—Office of Inspector General                                        21
Report No. 04-08-002-04-420
Processing of New Orleans Workers’ Complaints
in the Aftermath of Hurricane Katrina




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




22                                      U.S. Department of Labor—Office of Inspector General
                                                                Report No. 04-08-002-04-420
                                                  Processing of New Orleans Workers’ Complaints
                                                             in the Aftermath of Hurricane Katrina


                                                                                           Exhibit A

                 Schedule of Rotationally Assigned Investigators by Week
                       Total Investigators and Spanish-Speaking
          First Half of Fiscal Year 2006                 Second Half of Fiscal Year 2006

                                  Spanish-                                       Spanish-
                 Total            Speaking                       Total           Speaking
Week Ending      Investigators    Investigators   Week Ending    Investigators   Investigators
                                                  04/07/2006           0               0
                                                  04/14/2006           0               0
                                                  04/21/2006           2               2
                                                  04/28/2006           2               2
                                                  05/05/2006           1               1
                                                  05/12/2006           1               1
                                                  05/19/2006           2               2
                                                  05/26/2006           2               2
12/02/2005              2                  2      06/02/2006           2               2
12/09/2005              0                  0      06/09/2006           2               2
12/16/2005              0                  0      06/16/2006           2               2
12/23/2005              0                  0      06/23/2006           2               2
12/30/2005              0                  0      06/30/2006           0               0
01/06/2006              0                  0      07/07/2006           0               0
01/13/2006              0                  0      07/14/2006           1               1
01/20/2006              0                  0      07/21/2006           2               1
01/27/2006              1                  1      07/28/2006           3               2
02/03/2006              0                  0      08/04/2006           3               2
02/10/2006              2                  2      08/11/2006           3               2
02/17/2006              2                  2      08/18/2006           3               2
02/24/2006              0                  0      08/25/2006           3               2
03/03/2006              0                  0      09/01/2006           4               3
03/10/2006              3                  3      09/08/2006           6               5
03/17/2006              3                  3      09/15/2006           6               5
03/24/2006              2                  2      09/22/2006           6               5
03/31/2006              2                  2      09/29/2006           6               5
Average               0.9              0.9        Average             2.5            2.0




U.S. Department of Labor—Office of Inspector General                                              23
Report No. 04-08-002-04-420
Processing of New Orleans Workers’ Complaints
in the Aftermath of Hurricane Katrina




                 Schedule of Rotationally Assigned Investigators by Week
                       Total Investigators and Spanish-Speaking
          First Half of Fiscal Year 2007                      Second Half of Fiscal Year 2007

                                  Spanish-                                            Spanish-
                 Total            Speaking                            Total           Speaking
Week Ending      Investigators    Investigators         Week Ending   Investigators   Investigators
10/06/2006              3                  2            04/06/2007          2               1
10/13/2006              4                  2            04/13/2007          2               1
10/20/2006              7                  3            04/20/2007          2               1
10/27/2006              5                  2            04/27/2007          2               1
11/03/2006              5                  2            05/04/2007          2               1
11/10/2006              5                  2            05/11/2007          2               1
11/17/2006              5                  2            05/18/2007          2               1
11/24/2006              4                  1            05/25/2007          2               1
12/01/2006              5                  3            06/01/2007          1               0
12/08/2006              5                  3            06/08/2007          1               0
12/15/2006              4                  1            06/15/2007          1               0
12/22/2006              4                  1            06/22/2007          5               4
12/29/2006              2                  1            06/29/2007          5               4
01/05/2007              2                  1            07/06/2007          1               0
01/12/2007              2                  1            07/13/2007          1               0
01/19/2007              3                  1            07/20/2007          1               0
01/26/2007              2                  1            07/27/2007          1               0
02/02/2007              2                  1            08/03/2007          1               0
02/09/2007              2                  1            08/10/2007          1               0
02/16/2007              2                  1            08/17/2007          1               0
02/23/2007              2                  1            08/24/2007          4               0
03/02/2007              2                  1            08/31/2007          4               0
03/09/2007              2                  1            09/07/2007          1               0
03/16/2007              6                  3            09/14/2007          1               0
03/23/2007              6                  3            09/21/2007          1               0
03/30/2007              2                  1            09/28/2007          1               0
Average               3.6              1.6              Average            1.8            0.6




24                                                U.S. Department of Labor—Office of Inspector General
                                                                          Report No. 04-08-002-04-420
                                               Processing of New Orleans Workers’ Complaints
                                                          in the Aftermath of Hurricane Katrina




   Appendices




U.S. Department of Labor—Office of Inspector General                                        25
Report No. 04-08-002-04-420
Processing of New Orleans Workers’ Complaints
in the Aftermath of Hurricane Katrina




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




26                                      U.S. Department of Labor—Office of Inspector General
                                                                Report No. 04-08-002-04-420
                                               Processing of New Orleans Workers’ Complaints
                                                          in the Aftermath of Hurricane Katrina

                                                                               Appendix A


BACKGROUND

Hurricane Katrina

On August 29, 2005, Hurricane Katrina came ashore along the Louisiana, Mississippi
and Alabama coasts, causing more than $100 million in damage. Initially, it appeared
that the City of New Orleans had been spared the worst of the storm, but on August 30,
2005, the levees protecting the city were breached and water poured in, flooding
approximately 80 percent of the city. On September 6, 2005, Mayor Ray Nagin ordered
public safety officials to compel the evacuation of all persons who remained in the city
whether they wanted to leave or not.

After conditions in the New Orleans area improved, local and out-of-state contractors,
and people in search of work from all over the country, quickly moved into areas
damaged by the hurricane to begin cleanup and reconstruction operations. This mass
influx of contractors and workers created a great need for federal oversight to ensure
that workers were paid for all hours worked, were paid at least the federal minimum
wage, and received overtime pay for all hours worked over 40 per week.

Prior to Hurricane Katrina, the New Orleans Office was located in a building at 701
Loyola Avenue in downtown New Orleans. According to the New Orleans District
Director, the building housing the New Orleans Office was flooded and many of the
systems that were necessary for occupancy of the building were severely damaged.
Along with most residents of the city, the New Orleans Office employees evacuated
New Orleans and found themselves working at a number of different locations, including
Houston and Dallas, Texas; Baton Rouge and Monroe, Louisiana; Grand Rapids,
Michigan; and Jacksonville, Florida. The District Director worked out of the Houston
District Office until October 2005. After this time, the District Director moved to Baton
Rouge and continued to direct the operations of the New Orleans Office until temporary
space was found in November of 2005, in the Clearview Mall in Metairie, Louisiana, a
suburb of New Orleans. According to the District Director, the New Orleans Office staff
returned to New Orleans between November 2005 and December 2005. In late
November 2005, the first Spanish-speaking employees began rotational assignments to
New Orleans. In July 2006, the New Orleans Office staff returned to downtown, New
Orleans, opening an office in the F. Edward Herbert Building.

Hearing Before the Subcommittee on Domestic Policy

The Subcommittee on Domestic Policy, House Committee on Oversight and
Government Reform, held hearings on the adequacy of labor law enforcement in New
Orleans after Hurricanes Katrina and Rita. The first hearing was held on Tuesday,



U.S. Department of Labor—Office of Inspector General                                        27
Report No. 04-08-002-04-420
Processing of New Orleans Workers’ Complaints
in the Aftermath of Hurricane Katrina


June 26, 2007, and it sought to examine the adequacy of labor law enforcement by
Wage and Hour. After the hearing, the Subcommittee’s Chairman, Congressman
Dennis J. Kucinich, requested that the OIG conduct a performance audit of Wage and
Hour’s New Orleans Office. On Monday, October 29, 2007, a congressional field
hearing was in New Orleans, where the New Orleans Office District Director testified
before the subcommittee.

The Wage and Hour Division and the New Orleans District Office

Wage and Hour was created with enactment of the Fair Labor Standards Act (FLSA) of
1938. Wage and Hour’s mission is to promote and achieve compliance with labor
standards to protect and enhance the welfare of the nation’s workforce. As such, Wage
and Hour is responsible for the administration and enforcement of a wide range of labor
laws, including but not limited to the FLSA, the Davis Bacon Act, the Walsh Healey
Public Contracts Act, the Employee Polygraph and Protection Act, The Family and
Medical Leave Act, the Consumer Credit Protection Act, the McNamara-O’Hara Service
Contract Act, and the Immigration and Nationality Act.

The New Orleans Office is located within the Southwest Region of Wage and Hour. It
covers the state of Louisiana and maintains area offices in New Orleans, Baton Rouge,
Lafayette, Monroe, and Shreveport.

The New Orleans Office Complaint and Investigation Process

The New Orleans Office typically receives complaints by mail, phone, fax, or walk-in.
Complaints are not automatically registered in the Wage and Hour Investigative Support
and Reporting Database (WHISARD). It is only when information is received that
indicates that a violation is likely to have occurred under one of the statutes enforced by
Wage and Hour that a complaint is registered.

Typically, complaints are first received by Wage and Hour assistants or technicians who
perform the initial review. The assistants or technicians assess whether Wage and
Hour has jurisdiction in the matter and whether or not it appears likely that a law Wage
and Hour enforces has been violated. During this process, the assistant or technician
may discover that more information is needed from the complainant before a
determination can be made. The assistants or technicians may consult with the District
Director or Assistant District Director during this initial determination phase. Once a
preliminary determination has been made by the assistants or technicians, the
complaint is forwarded to the District Director or Assistant District Director for review.
The District Director or Assistant District Director then reviews the complaint and the
recommendations of the assistant or technician. If a decision is made by the District
Director or Assistant District Director that further investigative action is to be taken, the
District Director or Assistant District Director might recommend an alternative approach
in accordance with Wage and Hour’s internal procedures. The approach may be one of


28                                       U.S. Department of Labor—Office of Inspector General
                                                                 Report No. 04-08-002-04-420
                                               Processing of New Orleans Workers’ Complaints
                                                          in the Aftermath of Hurricane Katrina

a full on-site investigation, an investigation limited to a specific group of employees or
particular employment practice, an audit, or a conciliation of a specific situation, such as
the failure to provide a last paycheck.

If the complaint is not found to be valid, the assistant or technician informs the
complainant why no action will be taken, and if appropriate, refers the complainant to an
entity that might be able to provide assistance.

If a complaint is accepted, it is then registered into the WHISARD system as a case and
the complainant is sent an acknowledgment letter. The case is then put in inventory for
assignment. Assignment of cases is made by the District Director or Assistant District
Director based on a number of factors, including the presence of imminent danger, such
as minors who are engaged in a hazardous occupation, work load, available resources,
and the employer’s geographic location.

Once a case has been assigned, the assigned investigator contacts the complainant to
ensure all relevant information has been obtained. Excluding unusual circumstances,
investigators are expected to submit cases for management review within 90 days of
assignment. If additional time is needed, a written request may be made to the District
Director or Assistant District Director. The investigator’s first contact with the employer
generally consists of an initial conference. During this conference, the investigator
introduces himself or herself, assesses the employer to determine coverage,
determines the number of employees involved, and decides what type of investigation
will be conducted. Typically, investigators will begin the review of payroll records and
then conduct employee interviews, after which the record-check phase is completed. If
violations are found, the investigator computes the back wages or asks the employer to
compute the back wages. Back wages are computed with gross amounts due each
employee shown on the WH-56 Form. The WH-56 Form also includes the name and
address of the employee, period covered, and the Act under which the back wages are
due. The investigator holds a final conference with the employer to discuss the
violations and how the employer intends to achieve compliance in the future. After a
commitment to future compliance is achieved, the investigator requests payment for
back wages during the final conference and if the employer agrees to pay, the employer
signs the WH-56 Form. Once the District Director or Assistant District Director has
reviewed the case, he or she sends an official letter to the employer summarizing the
findings and confirming the agreement to pay.

If no such agreement was reached, the employer will usually be invited into the office for
a second conference during which WH attempts to secure an agreement to pay the
back wages. If no agreement is reached during this conference, legal remedies
available to Wage and Hour and to employees are explained to the employer.




U.S. Department of Labor—Office of Inspector General                                        29
Report No. 04-08-002-04-420
Processing of New Orleans Workers’ Complaints
in the Aftermath of Hurricane Katrina




                      THIS PAGE INTENTIONALLY LEFT BLANK




30                                      U.S. Department of Labor—Office of Inspector General
                                                                Report No. 04-08-002-04-420
                                               Processing of New Orleans Workers’ Complaints
                                                          in the Aftermath of Hurricane Katrina


                                                                               Appendix B

Objectives, Scope, Methodology, and Criteria

Objectives

Our audit objective was to determine whether the New Orleans Office adequately
responded to the labor crisis that followed Hurricane Katrina. To meet this objective, we
designed our audit tests to answer the following questions:

   1. Was the New Orleans Office adequately staffed, including Spanish and
      Portuguese-speaking investigators, to serve the needs of the New Orleans
      workforce after Hurricane Katrina?

   2. Did the New Orleans Office intake procedures impede workers’ ability to file
      complaints?

   3. Did the New Orleans Office adequately communicate with complainants?

   4. How did the New Orleans Office perform outreach and establish relationships
      within the community in order to gather and investigate complaints made by
      migrant workers?

Scope

Our audit covered activities relevant to our audit objective during the period July 1,
2005, through September 30, 2007. We conducted our audit at the Wage and Hour
National Office, the Southwest Regional Office, in Dallas, Texas, and the New Orleans
Office in New Orleans, Louisiana.

In planning and performing our audit, we considered internal controls of the New
Orleans Office of Wage and Hour that were relevant to our audit objectives by obtaining
an understanding of the program’s internal controls, and assessing control risk for the
purpose of achieving our objectives. The objective of our audit was not to provide
assurance on the internal controls. Consequently, we did not express an opinion on the
internal controls as a whole, but rather how they related to our objectives. Therefore,
we evaluated the internal controls as they pertained to staffing, intake procedures,
communication with complainants and outreach efforts.

Our consideration of the New Orleans Office’s controls relevant to our audit objectives
would not necessarily disclose all matters that might be reportable conditions. Because
of the inherent limitations in internal controls, misstatements, losses, or noncompliance
may nevertheless occur and may not be detected.



U.S. Department of Labor—Office of Inspector General                                        31
Report No. 04-08-002-04-420
Processing of New Orleans Workers’ Complaints
in the Aftermath of Hurricane Katrina


Methodology

To achieve our objective, we interviewed officials at the Wage and Hour Southwest
Regional Office and the New Orleans Office to obtain an understanding of the measures
taken to serve the New Orleans workforce after Hurricane Katrina. Furthermore, to
identify relevant internal controls, we interviewed officials at the New Orleans Office and
reviewed applicable regulations, policies and procedures.

We reviewed Congressional testimony given to the Subcommittee on Domestic Policy,
House Committee on Oversight and Government Reform. We then interviewed or
attempted to interview individuals and advocacy groups who appeared before the
subcommittee to both confirm the relevant information they provided to the
subcommittee and to obtain specific information or documented incidents that would
support the statements that were made.

We relied on computer-processed data contained in the Wage and Hour Investigative
Support and Reporting Database (WHISARD). We randomly selected a sample of 30
case files that were initiated and closed during the FY’s 2005 through 2007 from the
New Orleans Office’s filing cabinets and compared those case numbers with the
universe of investigations we obtained from the WHISARD to test the completeness of
the WHISARD data. Additionally, we tested the reliability of select data elements for
30 complaint case files we had judgmentally selected to test communication between
investigators and complainants. We also reviewed validation efforts from prior OIG
audit work and tests that had been conducted on the data by Wage and Hour. Based
on these tests and assessments, we conclude the data are sufficiently reliable to be
used in meeting our objective.

From information provided by New Orleans Office officials, the Southwest Regional
Administrator, and the WHISARD, we identified the number and names of the
investigators assigned to the New Orleans area office during our audit period and
identified those who spoke Spanish and/or Portuguese. We also obtained comparable
information for the Little Rock, Arkansas, area office and used this for comparison
purposes. We identified each of the investigators who accepted one or more
rotational assignments to the New Orleans Office subsequent to Hurricane Katrina
and confirmed the dates of their assignments and whether they spoke Spanish and/or
Portuguese.

We interviewed an official in the National Office of Wage and Hour to determine whether
Wage and Hour had a Continuity of Operations Plan (COOP). We reviewed the
Southwest Region’s COOP dated September 2007 to determine whether it adequately
addressed the needs of the New Orleans workforce in the event of a emergency similar
to that caused by Hurricane Katrina.




32                                      U.S. Department of Labor—Office of Inspector General
                                                                Report No. 04-08-002-04-420
                                                    Processing of New Orleans Workers’ Complaints
                                                               in the Aftermath of Hurricane Katrina

Additionally, we analyzed WHISARD data related to 1,797 investigations initiated
between October 1, 2004, and September 30, 2007. For the New Orleans Office and for
the 13 parishes 9 served by the New Orleans area office we compared the number and
type (complaint and directed) of investigations initiated in FY 2005 with various periods
subsequent to Hurricane Katrina (1st and 2nd halves of FY 2006, and FY 2007). We also
compared the time it took to assign and conclude investigations during FY 2005 with
those periods subsequent to the hurricane.

We interviewed staff responsible for intake duties at the New Orleans Office to
determine the procedures used to accept and evaluate complaints and compared these
procedures with those required by the FOH. Additionally, we evaluated the
qualifications of those individuals responsible for intake duties and reviewed the training
they had received.

To test whether the New Orleans Office staff adequately communicated with
complainants, we judgmentally selected 30 cases from a universe of 119 complaint
investigations initiated subsequent to the hurricanes with employers in one of three
parishes in the New Orleans area (Orleans, Jefferson and St. Bernard). We selected a
variety of cases based upon the employer’s parish, the period of time the investigation
was initiated and the length of time of the investigation. We reviewed each case file and
identified each time the investigator notified, or attempted to notify, the complainant
throughout the investigation.

We interviewed New Orleans Office officials regarding their efforts to perform outreach,
especially within the Hispanic community. We reviewed documentation related to their
efforts, including time charges to that category. We also confirmed these efforts with
outside sources, such as community organizations, worker advocacy groups and a
Spanish-speaking radio station.

Auditing Standards

We conducted our audit in accordance with Generally Accepted Government Auditing
Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objective.




9
  We were provided with a map of the New Orleans District and the parishes served by the various area
offices within the district. According the information we received, the New Orleans office served the
following 13 parishes: Washington, St. Tammany, St. John the Baptist, St. James, St. Mary, St. Martin,
Terrebonne, LaFourche, St. Charles, Jefferson, Plaquemines, St. Bernard and Orleans.


U.S. Department of Labor—Office of Inspector General                                                 33
Report No. 04-08-002-04-420
Processing of New Orleans Workers’ Complaints
in the Aftermath of Hurricane Katrina


Criteria

The principal criteria that governed the work performed were as follows:

      •      29 CFR, Subtitle B, Chapter V – Wage and Hour Division, Department of
             Labor

      •      ESA Wage and Hour Field Operations Handbook

      •      ESA Wage and Hour Southwest Region Continuity of Operations Plan
             (COOP) September 2007




34                                      U.S. Department of Labor—Office of Inspector General
                                                                Report No. 04-08-002-04-420
                                               Processing of New Orleans Workers’ Complaints
                                                          in the Aftermath of Hurricane Katrina

                                                                                 Appendix C


Acronyms and Abbreviations

COOP                          Continuity of Operations Plan

ESA                           Employment Standards Administration

FLSA                          Fair Labor Standards Act

FOH                           Field Operations Handbook

FY                            Fiscal Year

New Orleans Office            New Orleans District Office

OIG                           Office of the Inspector General

Wage and Hour                  Wage and Hour Division

WHISARD                       Wage and Hour Investigative Support And Reporting
                              Database




U.S. Department of Labor—Office of Inspector General                                        35
Report No. 04-08-002-04-420
Processing of New Orleans Workers’ Complaints
in the Aftermath of Hurricane Katrina




                     THIS PAGE INTENTIONALLY LEFT BLANK




36                                      U.S. Department of Labor—Office of Inspector General
                                                                Report No. 04-08-002-04-420
                                               Processing of New Orleans Workers’ Complaints
                                                          in the Aftermath of Hurricane Katrina

                                                                                 Appendix D
AGENCY RESPONSE




U.S. Department of Labor—Office of Inspector General                                        37
Report No. 04-08-002-04-420
Processing of New Orleans Workers’ Complaints
in the Aftermath of Hurricane Katrina




38                                      U.S. Department of Labor—Office of Inspector General
                                                                Report No. 04-08-002-04-420
                                               Processing of New Orleans Workers’ Complaints
                                                          in the Aftermath of Hurricane Katrina




U.S. Department of Labor—Office of Inspector General                                        39
Report No. 04-08-002-04-420
Processing of New Orleans Workers’ Complaints
in the Aftermath of Hurricane Katrina




40                                      U.S. Department of Labor—Office of Inspector General
                                                                Report No. 04-08-002-04-420
